App. 1
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-40771
-----------------------------------------------------------------------

JONAS YBARRA, JR.,
Plaintiff-Appellant,
versus
TEXAS HEALTH AND HUMAN SERVICES
COMMISSION; ADELA M. GONZALEZ;
JAY WONG; JORGE PERRY; FERNANDO
DE LUNA; MARIO GOMEZ,
Defendants-Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
No. 1:17-CV-174
-----------------------------------------------------------------------

(Filed Jul. 15, 2019)
Before HIGGINBOTHAM, SMITH, and SOUTHWICK,
Circuit Judges.
PER CURIAM:*

* Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 2
Jonas Ybarra was ﬁred ﬁrst by U.S. Immigration
and Customs Enforcement (“ICE”) and then by the
Texas Health and Human Services Commission. He
sued three of his former colleagues at ICE, the Commission, and two former coworkers at the Commission
on various theories, including a Bivens remedy against
the federal defendants and 42 U.S.C. § 1983 against
the state defendants. He claimed retaliation, sex discrimination, and multiple violations of his civil rights
and conversion of property.
The magistrate judge issued a comprehensive 27page Report and Recommendation that recommended
dismissal of all claims. The district court adopted the
recommendation in a judgment of dismissal. Ybarra
appeals as to some of the denied claims.
We have reviewed the briefs, pertinent parts of
the record, and the applicable law and have heard the
arguments of counsel. The judgment of dismissal is
AFFIRMED, essentially for the reasons amply explained by the magistrate judge as to the issues that
have been appealed.

App. 3
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
BROWNSVILLE DIVISION
JONAS YBARRA, JR.,
Plaintiff,
VS.
TEXAS HEALTH AND
HUMAN SERVICES
COMMISSION, et al.,
Defendants.

§
§
§
§
§
§
§
§
§

CIVIL ACTION NO.
1:17-CV-174

ORDER
(Filed Aug. 16, 2018)
On June 12, 2018, the United States Magistrate
Judge ﬁled a Report and Recommendation (Doc. 46).
Plaintiff has timely objected to the Report and Recommendation (Doc. 47).
Having considered de novo the Magistrate Judge’s
Report and Recommendation and the issues raised by
Plaintiff ’s Objections, the Court ADOPTS the Report
and Recommendation. Therefore, Defendants’ Motions
to Dismiss (Docs. 25, 27, and 42) are GRANTED. Accordingly, it is
ORDERED that Plaintiff Jonas Ybarra, Jr.’s
claims against any and all defendants for (1) unlawful
retaliation; (2) discrimination based on sex; (3) 42

App. 4
U.S.C. § 1985 conspiracy to interfere with Plaintiff ’s
civil rights; (4) violations of 5 U.S.C. § 2302(b); (5)
Bivens civil rights violations; and (6) 42 U.S.C. § 1983
civil rights violations are DISMISSED with prejudice
for failure to state a claim upon which relief can be
granted. It is further
ORDERED that Plaintiff ’s claim of conversion
against Defendants Gonzalez, Wong, and De Luna are
DISMISSED without prejudice for lack of subject
matter jurisdiction.
SIGNED this 16th day of August, 2018.
/s/ Fernando Rodriguez, Jr.
Fernando Rodriguez, Jr.
United States District Judge

App. 5
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
BROWNSVILLE DIVISION
JONAS YBARRA,

§
§
Plaintiff,
§
v.
§
TEXAS HEALTH AND §
§
HUMAN SERVICES
COMMISSION, ET AL., §
§
Defendants
§

Civil Action No.
B-17-174

REPORT AND RECOMMENDATION
OF THE MAGISTRATE JUDGE
(Filed Jun. 13, 2018)
On August 31, 2017, Plaintiff Jonas Ybarra
(“Ybarra”) ﬁled a complaint against the Texas Health
and Human Services Commission (“THHSC”), Adela
Gonzalez (“Gonzalez”), Jay Wong (“Wong”), Jorge Perry
(“Perry”), Fernando De Luna (“De Luna”), and Mario
Gomez (“Gomez”), alleging employment retaliation
and civil rights violations. Dkt. No. 1. On November 1,
2017, Ybarra ﬁled an amended complaint, Dkt. No. 22,
which is the operative complaint in this case.
All of the defendants have ﬁled motions to dismiss.
Dkt. Nos. 25, 27, 42. Those motions have been fully
briefed and are currently pending before the Court.
After reviewing the record and the relevant case
law, the Court recommends that the motions to dismiss

App. 6
be granted. As to Ybarra’s claims of retaliation, discrimination based on sex, violations of the Prohibited
Personnel Practices Act, and civil right claims under
Bivens and § 1983, Ybarra has failed to state a claim
upon which relief can be granted. As to Ybarra’s claim
of unlawful conversion, the Court lacks subject matter
jurisdiction.
I.

Background
A. Factual Background

Ybarra worked as a deportation ofﬁcer for U.S. Immigration and Customs Enforcement (“ICE”) from July
2008 until December 2014. Dkt. No. 22, p. 4.
Around August or September 2014, Ybarra testiﬁed against one of his supervisors, Jorge Perry, in administrative investigations conducted by ICE’s Ofﬁce
of Professional Responsibility. Dkt. No. 22, p. 4. Ybarra
informed the investigators that Perry misrepresented
his position to acquire weapons from the United States
Army and accused Perry “of smuggling a M4 riﬂe on a
commercial airliner.” Id. Ron Spivey, one of the investigators, promised Ybarra “that there would be no retaliation for the offering of his testimony.” Id. Ybarra also
gave unspeciﬁed testimony against co-worker Steven
Mock. Id, p. 5.
Ybarra alleges that he was subject to retaliation
because Perry and other ICE agents “have sabotaged
Mr. Ybarra’s chances of obtaining employment.” Dkt.
No. 22, p. 4. Ybarra has applied for “many” law

App. 7
enforcement positions “for which he possesses the requisite skill, experience, education, and training,” but
was not hired for any of them. Id, pp. 4-5. Ybarra has
not identiﬁed the positions he applied for, nor the exact
actions undertaken by Perry or any other federal agent
to sabotage his employment prospects.
On March 21, 2016, Ybarra was hired to work as
an investigator for the Texas Health and Human Services Commission. Dkt. No. 22, p. 5. The complaint
states that Ybarra had a “probationary period” at the
outset of his employment. Id, p. 8. The Defendants note
that the probationary period lasted six months. Dkt.
No. 27, p. 11. Thus, Ybarra was employed in a probationary status from March until September 2016.
Ybarra asserts that from March 21, 2016 until June 23,
2016, “ICE agents communicated with the Texas
Health and Human Services Commission and falsely
told them that Mr. Ybarra had lied on . . . [his] job application as well as on his resume.” Dkt. No. 22, p. 5.
Ybarra does not identify the agents who made these
statements or the exact wording of the statements.
Ybarra asserts that on June 1, 2016, “he reported
that another employee was violating the commission
ofﬁce leave policy.” Dkt. No. 22, p. 7. Ybarra does not
identify the employee or how that employee was violating ofﬁce policy. Id.
On June 23, 2016, during Ybarra’s probationary
period, Texas Health and Human Services terminated
Ybarra’s employment. Dkt. No. 22, p. 6. Ybarra claims
that, when he “was ﬁred he was not allowed to remove

App. 8
his personal possessions, including private documents
from his ofﬁce.” Id. Ybarra claims that these items
were never returned to him. Id.
One day later, on June 24, 2016, one of Ybarra’s exsupervisors at THHSC – Adela Gonzalez – instructed
Texas Health and Human Services Investigator Jay
Wong to “investigate Mr. Ybarra’s actions during his
tenure as an employee at Texas Health and Human
Services Commission.” Dkt. No. 22, p. 7. Ybarra asserts
that this investigation was “pretextual and conducted
ad hoc and in retaliation in order to justify . . . termination.” Id., pp. 7-8.
In July 2016, Wong spoke with Perry and Mock
about Ybarra. Dkt. No. 22, p. 5-6. Ybarra alleges that
these actions by Wong were done to obtain negative information “through personal friends or contacts, without proper legal process.” Id. He further alleges that
Perry and Mock gave “false and harmful” information
to Wong in retaliation for Ybarra’s earlier testimony.
Id. Ybarra claims that Perry did not disclose to Wong
that he “was a biased party who should most likely not
be considered a unprejudiced source of reference for
Mr. Ybarra’s employability.” Id.
While a copy of Wong’s investigative report has not
been entered into the record, Ybarra asserts that it “revealed that Vicky Corona, a[n] employee of Texas
Health and Human Services Commission, communicated with Defendant Gonzalez indicating her belief
that Mr. Ybarra showed signs and characteristics that
suggest problems with female authority.” Dkt. No. 22,

App. 9
p. 8. Attached to the complaint was an exhibit: an email
to Gonzalez from Michael Battles, a manager in the
Texas Health and Human Services Ofﬁce of Inspector
General. Dkt. No. 22, pp. 21-22.1
The email, which is dated June 7, 2016 – two
weeks before Ybarra’s dismissal – is a “recap of the list
of concerns that [Gonzalez] shared with [Battle] regarding new hire Jonas Ybarra.” Dkt. No. 22, pp. 21-22.
The email does not state, or even raise the inference,
that Corona told Gonzalez that Ybarra “showed signs
and characteristics that suggest problems with female
authority.” Id. Rather, the email states that Ybarra
traveled with Corona “to assist on home visits and observe client interviews,” but that Corona had to ask
Ybarra several times “not to interrupt the interview.”
Id. When Ybarra asked why he was going if he wasn’t
going to conduct any part of the interview, Corona reminded him that he was merely there to observe and
“to learn policy and procedures in his new position.” Id.
Corona also told Gonzalez that Corona believed Ybarra
“used intimidation tactics during interviews with clients,” repeatedly standing over them, instead of sitting
next to them. Id. Corona also noted that Ybarra was
carrying a weapon, based on a civilian personal handgun permit, but appeared to “purposely make the
handgun visible under his jacket during interviews
with clients in the ofﬁce,” possibly creating the false
1

In deciding a motion to dismiss under FED. R. CIV. P.
12(b)(6), the Court can consider the complaint and any exhibits
attached to the complaint. Lone Star Fund V (U.S.), L.P. v. Barclays Bank PLC, 594 F.3d 383, 387 (5th Cir. 2010).

App. 10
perception that the investigators were “representing
themselves as law enforcement.” Id.
Corona also stated that it appeared that Ybarra
was using his phone to record the interviews without
informing the clients, which she believed to be unprofessional. Dkt. No. 22, pp. 21-22.
On one trip, Ybarra was scheduled to meet with “a
federal attorney” regarding one of Corona’s cases, but
Gonzalez decided to handle that case in a different
manner that would not require the assistance of the
federal attorney. Dkt. No. 22, p. 21. When Corona informed Ybarra of Gonzalez’s decision, Corona said that
Ybarra “raised his voice at her and said that she should
not have contacted [Gonzalez] about this and she
should have spoken with [Ybarra] and that now he was
going to have to call [Gonzalez] to ﬁx the problem that
[Corona] created.” Id. Once they returned to the ofﬁce,
Ybarra again raised his voice and pointed his ﬁnger at
Corona, “asking how she got involved in the case.” Id.
When Corona informed him that the case was “her
case,” Ybarra responded that “he was in charge of all
things federal.” Id. Gonzalez told Battles that Gonzalez
had “made it clear from the day [Ybarra] was hired
that he is not a Lead Investigator so he has no supervisory authority over other investigators.” Id.
Ybarra claims that Corona “served as the cat’s
paw that unfairly stereotyped and influenced Defendant Gonzalez into believing that Mr. Ybarra was an
unruly masculine male undeserving of employment at
Texas Health and Human Services.” Dkt. No. 22, p. 8.

App. 11
B. Procedural History
On August 31, 2017, Ybarra ﬁled a complaint
against THHSC, Gonzalez, Wong, Perry, De Luna, and
Gomez. Dkt. No. 1. Ybarra made six claims: (1) unlawful retaliation by Gonzalez and Wong, because they
ﬁred him for reporting that another employee was violating the leave policy; (2) that Gonzalez, Wong, Perry,
De Luna and Gomez conspired to interfere with
Ybarra’s civil rights by acting in concert to terminate
his employment; (3) violations of the Prohibited Personnel Practices Act by Perry, De Luna and Gomez
for working to get Ybarra ﬁred from his job at THHSC;
(4) Bivens claims against Perry, De Luna, and Gomez,
for misusing “the power they possess by virtue of a federal law, in pursuit of purely personal objectives to
deny Mr. Ybarra civil rights;” (5) civil rights violations
under 42 U.S.C. § 1983 by Wong and Gonzalez for acting in concert to have Ybarra ﬁred; (6) conversion
claims against Gonzalez and de Luna for not returning
Ybarra’s personal property after ﬁring him. Id.
On October 10, 2017, THHSC ﬁled a motion to dismiss. Dkt. No. 14. On October 13, 2017, Wong and Gonzalez ﬁled a motion to dismiss. Dkt. No. 16.
On October 31, 2017, Ybarra ﬁled a motion for
leave to ﬁle an amended complaint. Dkt. No. 19.
On November 1, 2017, the Court granted the motion for leave to ﬁle the amended complaint. Dkt. No.
21. The Court also dismissed the pending motions to
dismiss as moot in light of the amended complaint. Id.

App. 12
The ﬁrst amended complaint is the operative complaint in this case. Dkt. No. 22. In that complaint,
Ybarra re-urged his prior claims from the ﬁrst complaint, but also added a claim of sex discrimination
against THHSC, claiming he was ﬁred based on his
gender. Id., p. 22.
On November 22, 2017, THHSC ﬁled a renewed
motion to dismiss under Fed. R. Civ. P. 12(b)(1) and
12(b)(6). Dkt. No. 25. THHSC asserts that sovereign
immunity bars any § 1983, § 1985, or state law conversion claims against it, depriving the Court of subject
matter jurisdiction over those claims. Id. THHSC further asserts that Ybarra has failed to state a claim
upon which relief can be granted for any of his employment discrimination claims. Id.
On that same day, Gonzalez and Wong also ﬁled a
motion to dismiss, arguing that Ybarra failed to state
a claim upon which relief can be granted for any claims
made against them. Dkt. No. 27.
On December 13, 2017, Ybarra ﬁled responses to
the motions to dismiss. Dkt. Nos. 31, 32. As to Gonzalez
and Wong, Ybarra argues: that they are not entitled to
qualiﬁed immunity; that he has stated a claim upon
which relief can be granted; and that he can maintain
a claim for conversion against them in their individual
capacities. Dkt. No. 31. As to THHSC, Ybarra clariﬁes
his complaint to state that he is only bringing Title VII
retaliation and gender-based discrimination claims
against THHSC. Dkt. No. 32. Ybarra asserts that Title
VII “clearly abrogated the State of Texas’ Eleventh

App. 13
Amendment immunity;” that he exhausted all necessary administrative remedies prior to ﬁling the suit;
and, that he stated a claim upon which relief can be
granted. Id.
On April 30, 2018, De Luna, Gomez, and Perry,
timely ﬁled a motion to dismiss. Dkt. No. 42. Those defendants argue that Ybarra cannot maintain a § 1985
because whistleblowers are not a protected class under
that statute; and further that they are all entitled to
qualiﬁed immunity. Id. Those Defendants also assert
that termination of Ybarra’s state employment cannot,
by deﬁnition, violate the federal Prohibited Personnel
Practices Act. id. They also assert that none of their alleged actions ﬁt within the universe of actions that can
form the basis for Bivens claim. Lastly, De Luna argues
that, because he was acting within the scope of his employment, any state law conversion claim is really a
claim against the United States and Ybarra has not
sought administrative relief under the FTCA prior to
ﬁling suit. Id.
On May 21, 2018, Ybarra ﬁled a response, arguing
that De Luna, Gomez, and Perry are not entitled to
qualiﬁed immunity. Dkt. No. 44. Ybarra further argues
that he has pled sufﬁcient facts to support his § 1985,
Bivens, and Prohibited Personnel Practices Act claims.
Id. Lastly, he argues that his conversion claim against
De Luna survives, because he alleges that “De Luna is
sued individually for acting beyond the scope of his employment.” Id.

App. 14
On May 31, 2018, De Luna, Gomez and Perry ﬁled
a reply brief.
II.

Applicable Law
A. Jurisdiction

The threshold question, before considering the
substance of any claim, is whether the court possesses
jurisdiction over the claim. This is the case, because
federal courts are courts of limited jurisdiction, whose
authority exists only within the boundaries established by Congress and the United States Constitution.
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574, 583-84
(1999). A plaintiff bears the burden of proving jurisdiction. Choice Inc. of Tex. v. Greenstein, 691 F.3d 710, 714
(5th Cir. 2012).
In determining whether jurisdiction exists, the
Court may consider: “(1) the complaint alone; (2) the
complaint supplemented by undisputed facts evidenced in the record; or (3) the complaint supplemented by undisputed facts plus the court’s resolution
of disputed facts.” Ramming v. U.S., 281 F.3d 158, 161
(5th Cir. 2001). Conclusory allegations or “legal conclusions masquerading as factual conclusions will not
sufﬁce to prevent a motion to dismiss.” Wells v. Ali, 304
Fed. App’x. 292, 293 (5th Cir. 2008) (quoting FernandezMontes v. Allied Pilots Ass’n, 987 F.2d 278, 284 (5th Cir.
1993)).

App. 15
B. Motion to Dismiss under § 12(b)(6)
“A motion to dismiss under Rule 12(b)(6) tests only
the formal sufﬁciency of the statements of the claims
for relief. It is not a procedure for resolving contests
about the facts or merits of the case. . . . [T]he Court
must take the plaintiffs’ allegations as true, view them
in a light most favorable to plaintiffs, and draw all inferences in favor of the plaintiffs.” Askanase v. Fatjo,
828 F. Supp. 465, 469 (S.D. Tex. 1993) (citing Scheuer
v. Rhodes, 416 U.S. 232, 236 (1974)); Garrett v. Commonwealth Mortgage Corp. of Am., 938 F.2d 591, 593
(5th Cir. 1991)).
The plaintiff must plead “enough facts to state a
claim to relief that is plausible on its face.” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007). Consistent
with this requirement, “plaintiffs must allege facts
that support the elements of the cause of action in
order to make out a valid claim.” City of Clinton v.
Pilgrim’s Pride Corp., 632 F.3d 148, 152-53 (5th Cir.
2010). “Factual allegations must be enough to raise a
right to relief above the speculative level, on the assumption that all the allegations in the complaint are
true (even if doubtful in fact).” Twombly, 550 U.S. at
589. “[R]egardless of whether the plaintiff is proceeding pro se or is represented by counsel, conclusory allegations or legal conclusions masquerading as factual
conclusions will not suffice to prevent a motion to
dismiss.” McConathy v. Dr.Pepper/Seven Up Corp., 131
F.3d 558, 561 (5th Cir. 1998).

App. 16
Whether a complaint states a plausible claim for
relief is a context-speciﬁc task that requires the reviewing court to draw on its judicial experience and
common sense. Iqbal v. Ashcroft, 556 U.S. 662, 678
(2009). “A claim has facial plausibility when the plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. It follows that, “where
the well-pleaded facts do not permit the court to infer
more than the mere possibility of misconduct, the complaint has alleged – but it has not ‘show[n]’ – ‘that the
pleader is entitled to relief.’ ” Id. at 1950 (quoting Fed.
R. Civ. P. 8(a)(2)).
C. Retaliation
In order to “establish a prima facie retaliation
case,” under Title VII, a plaintiff must plead facts
showing that he (1) “was engaged in protected activity”; (2) “was subjected to an adverse employment action”; and (3) “there was a causal connection between
the protected activity and the adverse employment action.” Porter v. Houma Terrebonne Hous. Auth. Bd. of
Comm’rs, 810 F.3d 940, 945 (5th Cir. 2015).
State actors and agencies do not have Eleventh
Amendment immunity from suit for Title VII claims.
Perez v. Region 20 Educ. Serv. Ctr., 307 F.3d 318, 326
n. 1 (5th Cir. 2002) (“Congress has clearly abrogated
the states’ Eleventh Amendment immunity in enacting Title VII.”).

App. 17
D. Sex Discrimination
A plaintiff claiming sex discrimination under Title
VII can prove the claim in one of two ways: (1) mixed
motive or (2) pretext. Roberson v. Alltel Info. Servs.,
373 F.3d 647, 651 (5th Cir. 2004). Ybarra has speciﬁcally sought relief alleging a mixed motive. Dkt. No. 32,
p. 5.
Under a mixed motive analysis, the plaintiff “must
demonstrate, by either direct or circumstantial evidence, that the employer was motivated to take the adverse employment action by both permissible and
forbidden reasons.” Id. The plaintiff does not necessarily have to show that the supervisor who terminated his employment had a discriminatory animus, if
he can show that the decisionmaker “was inﬂuenced by
others who harbored discriminatory animus.” Id., at
653. This type of claim is also known as a “cat’s paw”
claim, where the formal decision maker merely served
as the conduit – or cat’s paw – to effectuate the discriminatory animus of a subordinate. Russell v. McKinney Hosp. Venture, 235 F.3d 219, 227 (5th Cir. 2000)
(citing Shager v. Upjohn Co., 913 F.2d 398, 405 (7th Cir.
1990)).
“If the employee can demonstrate that others had
inﬂuence or leverage over the ofﬁcial decisionmaker,
and thus were not ordinary co-workers, it is proper to
impute their discriminatory attitudes to the formal
decisionmaker.” Russell, 235 F.3d at 226. To invoke a
“cat’s paw” claim, the plaintiff must show that (1) the
co-worker exhibited discriminatory animus and (2)

App. 18
that same co-worker “possessed leverage, or exerted inﬂuence, over the titular decisionmaker.” Roberson, 373
F.3d at 653.
E. Civil Rights Conspiracy
The federal statute that prohibits civil rights conspiracies has three separate sections. 42 U.S.C. § 1985.
Two of those sections are relevant here. Section two
prohibits a conspiracy “to deter, by force, intimidation,
or threat, any party or witness in any court of the
United States from attending such court, or from testifying to any matter pending therein, freely, fully, and
truthfully, or to injure such party or witness in his person or property on account of his having so attended or
testiﬁed.” 42 U.S.C. § 1985(2). Section three prohibits a
conspiracy to deprive “any person or class of persons of
the equal protection of the laws, or of equal privileges
and immunities under the laws.” 42 U.S.C. § 1985(3).
“[I]nterference or obstruction of administrative
proceedings is not redressable under section 1985(2).”
Deubert v. Gulf Fed. Sav. Bank, 820 F.2d 754, 758 (5th
Cir. 1987). Furthermore, this section – indeed, the entire statute – only protects against racial or classbased animus; it does not serve to protect whistleblowers. Bryant v. Military Dep’t of Mississippi, 597 F.3d
678, 687 (5th Cir. 2010) (“we have previously rejected
the argument that ‘whistleblowers’ are a protected
class for purposes of § 1985 claims.”).

App. 19
F. Prohibited Personnel Practices Act
As relevant here, federal employers may not take
certain personnel actions against an employee, or an
applicant for employment, based upon that person’s
prior disclosure of “gross mismanagement, a gross
waste of funds, an abuse of authority, or a substantial
and speciﬁc danger to public health or safety.” 5 U.S.C.
§ 2302(b)(8). This statute only applies to employment
with certain federal agencies. Bunce v. Computer Scis.
Corp., 113 F. Supp. 3d 234, 237 (D.D.C. 2015); see also
5 U.S.C. § 2302(a)(2)(C) (deﬁning which federal government agencies the statute does and does not apply to).
If the plaintiff “is a former employee and is not an applicant for employment with the [federal] government,” then this statute is inapplicable. Amarille v.
Ofﬁce of Pers. Mgmt., 28 F. App’x 931, 933 (Fed. Cir.
2001).
G. Section 1983
As relevant here, 42 U.S.C. § 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a

App. 20
judicial ofﬁcer for an act or omission taken in
such ofﬁcer’s judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable.
Id.
Section 1983 “is not itself a source of substantive
rights, but a method for vindicating federal rights elsewhere conferred by those parts of the United States
Constitution and federal statutes that it describes.”
Baker v. McCollan, 443 U.S. 137, 144, n. 3 (1979). To
prevail upon a § 1983 claim, a plaintiff must establish
two elements: (1) a constitutional violation; and (2)
that the defendants were acting under color of state
law when they committed the constitutional violation.
Whitley v. Hanna, 726 F.3d 631, 638 (5th Cir. 2013).
H. Bivens
While 42 U.S.C. § 1983 applies to a defendant acting under color of state law, a different basis exists for
claims against individual federal actors who may have
violated a plaintiff ’s constitutional rights. Bivens v.
Six Unknown Named Agents of the Federal Bureau of
Narcotics, 403 U.S. 388, 391-96 (1971). Bivens actions
are the federal analog to suits brought against state
actors under 42 U.S.C. § 1983. Ashcroft v. Iqbal, 556
U.S. 662, 675-76 (2009). Bivens is a judicially created
remedy, where no other remedy exists under the law.
Bivens, 403 U.S. at 396-97. There is no “automatic entitlement” to a damages remedy under Bivens. Wilkie

App. 21
v. Robbins, 551 U.S. 537, 550 (2007). Bivens actions
are limited to actions against federal actors for constitutional violations of: the Fourth Amendment; the Due
Process Clause of the Fifth Amendment; and, the
Cruel and Unusual Punishments Clause of the Eighth
Amendment. Correctional Svcs. Corp. v. Malesko, 534
U.S. 61, 67 (2001).
Expanding Bivens beyond its previously recognized boundaries is a “disfavored” remedy. Ziglar v.
Abbasi, ___ U.S. ___, 137 S. Ct. 1843, 1857 (2017).
I.

Conversion

“The elements of a conversion claim are (1) the
plaintiff owned or had possession of the property or entitlement to possession; (2) the defendant unlawfully
and without authorization assumed and exercised control over the property to the exclusion of, or inconsistent with, the plaintiff ’s rights as an owner; (3) the
plaintiff demanded return of the property; and (4) the
defendant refused to return the property.” Stroud
Prod., L.L.C. v. Hosford, 405 S.W.3d 794, 811 (Tex. App.
2013).
A plaintiff may not sue a federal employee for the
“loss of property,” if that employee was acting “within
the scope of his ofﬁce or employment.” 28 U.S.C.
§ 2679(b)(1). “[W]hether a particular federal employee
was or was not acting within the scope of his employment is controlled by the law of the state in which the
negligent or wrongful conduct occurred.” Rankin v.
U.S., 556 F. App’x 305, 308 (5th Cir. 2014) (citing Garcia

App. 22
v. U.S., 62 F.3d 126, 127 (5th Cir.1995) (en banc)). The
plaintiff bears the burden of proving that the federal
employee was acting outside of the scope of his duties.
Rankin, 556 F. App’x at 308.
III. Analysis
Ybarra has made wide-ranging claims against
numerous defendants. Despite his arguments to the
contrary, Ybarra’s claims of: (A) retaliation; (B) sex discrimination; (C) § 1985 violations; (D) violations of the
Prohibited Personnel Practices Act; and, civil right
claims under (E) Bivens and (F) § 1983; fail to state a
claim upon which relief can be granted, for which reason they should be dismissed. As to Ybarra’s claim of
unlawful conversion, addressed below as (G), the Court
lacks subject matter jurisdiction, which mandates dismissal.
A. Retaliation
Ybarra claims that THHSC retaliated against him
for reporting another employee’s misconduct regarding
leave policy. Dkt. No. 22. Under the facts alleged,
Ybarra fails to state a claim upon which relief can be
granted, for which reason it should be dismissed.
As previously noted, Ybarra must plead facts tending to show that: (1) he engaged in a protected activity;
(2) he suffered an adverse employment action and (3)
there was a causal connection between the protected

App. 23
activity and the employment action. Porter, 810 F.3d at
945. Ybarra has not met this burden.
Ybarra’s complaint fails to plead any facts showing that he engaged in a protected activity. “Only those
activities listed under Title VII are protected from retaliation.” Jimenez v. Potter, 211 F. App’x 289, 290 (5th
Cir. 2006). Title VII protects against employees facing
retaliation because he or she “has opposed any practice
made an unlawful employment practice by this subchapter.” 42 U.S.C. § 2000e-3. Accordingly, “protected
activity under Title VII must relate to discriminatory
practices based on race, color, religion, sex, or national
origin.” Allen v. Envirogreen Landscape Professionals,
Inc., 721 F. App’x 322, 327 (5th Cir. 2017), as revised
(Dec. 7, 2017).
There are no facts in the complaint showing that
Ybarra “opposed any practice” that related to “discriminatory practices based on race, color, religion, sex, or
national origin.” Id. Indeed, the only allegation in the
complaint is that he reported misconduct by a fellow
employee relating to the ofﬁce leave policy. Dkt. No. 22.
In his response to THHSC’s motion to dismiss, Ybarra
merely stated that he “engaged in protected activity,”
but does not speciﬁcally identify what the activity was
or how it related to discrimination based upon race,
color, religion, sex, or national origin. Dkt. No. 32, p. 3.
This blanket assertion is insufﬁcient to state a claim
upon which relief can be granted. Wesley v. Scobee
Foods, Inc., No. 3:12-CV-1836-K, 2013 WL 3324092, at
*6 (N.D. Tex. June 28, 2013).

App. 24
Furthermore, because Ybarra has not pled facts
showing a protected activity, he also has failed – by definition – to plead any facts showing a causal connection between the decision to terminate his employment
and a protected activity. Baker v. Am. Airlines, Inc., 430
F.3d 750, 755 (5th Cir. 2005). Given these failures,
Ybarra has failed to state a claim upon which relief can
be granted and the claim should be dismissed.
B. Sex Discrimination
Ybarra claims that he was the victim of discrimination based upon his sex, because Vicky Corona, a female co-worker, “unfairly stereotyped and inﬂuenced
Defendant Gonzalez into believing that Mr. Ybarra
was an unruly masculine male undeserving of employment at Texas Health and Human Services.” Dkt. No.
22, p. 8. Once again, Ybarra has failed to state a claim
upon which relief can be granted.
In order to state a claim upon which relief can be
granted, under a mixed-motive theory, Ybarra must
plead facts tending to show “by either direct or circumstantial evidence, that the employer was motivated to
take the adverse employment action by both permissible and forbidden reasons.” Roberson, 373 F.3d at 651.
Thus, Ybarra must plead some facts showing that
THHSC had some “forbidden reasons” – such as terminating his employment solely because he was a man.
Id. Ybarra can meet this standard either by showing
that the decisionmaker possessed such animus or
that there was another employee who exhibited

App. 25
discriminatory animus and that same co-worker “possessed leverage, or exerted inﬂuence, over the titular
decisionmaker.” Roberson, 373 F.3d at 653.
Ybarra’s complaint alleges that Corona told Gonzalez – also a female – that “Mr. Ybarra showed signs
and characteristics that suggest problems with female
authority.” Dkt. No. 22, p. 8. The complaint then references the email from Mike Battles to Gonzalez. Id. Despite its citation in the complaint, the email does not
support the claim made by Ybarra.2
In the email, Battles, a male, recounts a “list of
concerns” that Gonzalez had raised with him concerning Ybarra’s continued employment. Dkt. No. 22, p. 21.
In that list of concerns, Gonzalez had listed several incidents involving Corona. Id. Corona had reported that
Ybarra had “used intimidation tactics during interviews with clients”; had appeared to “purposely make
his [civilian] handgun visible under his jacket during
interviews with clients in the ofﬁce”; had recorded client interviews without permission; and, had acted as if
he had “supervisory authority over other investigators.” Id.
Additionally, other agents reported that Ybarra attempted to get them to join him – that is Ybarra – at
Starbucks and a gun store during work hours, an

2

As previously noted, the Court can consider the contents of
the email in deciding the motion to dismiss because the email was
attached as an exhibit to the complaint. Lone Star Fund, 594 F.3d
at 387.

App. 26
impermissible use of personal time during work hours.
Dkt. No. 22, p. 21.
Gonzalez told Battles that Gonzalez believed that
Ybarra was “not making the adjustment from having
been a federal agent to now being an investigator with
General Investigations and [Ybarra’s] integrity had
been called into question.” Dkt. No. 22, p. 21.
There is no evidence in the report that Corona
ever told Gonzalez that Ybarra was an “unruly masculine male,” or made any similar comments. Moreover,
Corona’s reports do not show any discriminatory animus, but, instead they simply relay Corona’s account
of interactions she had with Ybarra. As such, Corona’s
statements show no direct evidence of discriminatory
animus. Rodriguez v. Eli Lilly & Co., 820 F.3d 759, 765
(5th Cir. 2016) (deﬁning direct evidence as “evidence
that, if believed, proves the fact of discriminatory animus without inference or presumption.”). Indeed,
Ybarra has pled no facts showing direct evidence of
discriminatory animus by any defendant or co-worker.
Furthermore, even assuming that Corona had any
discriminatory animus, Ybarra has pled no facts showing that Corona acted as the “cat’s paw” in effectuating
Ybarra’s termination. To make such a showing, Ybarra
must plead facts to plausibly show that Corona “possessed leverage, or exerted inﬂuence, over the titular
decisionmaker.” Roberson, 373 F.3d at 653. Thus, while
Ybarra’s termination came from either Gonzalez or
Gonzalez’s superiors, Ybarra claims that Corona was
the real decisionmaker and that the termination

App. 27
process was driven by her animus toward Ybarra, because he is male. Dkt. No. 22, p. 8. The facts in the complaint and the email, however, do not support this
claim.
It is not enough that Corona informed Gonzalez of
her concerns; in order to serve as the “cat’s paw,” Corona had to exert inﬂuence over Gonzalez “in such a
way as to co-opt her decision making.” DePree v. Saunders, 588 F.3d 282, 288 (5th Cir. 2009). There is no evidence that Corona’s opinions were given “special
weight” when deciding whether to terminate Ybarra’s
employment. Id. Based upon the facts as pled – and
shown in the email – this is not a case where the decision-maker merely relied “on the views of supervisors
rather than her ﬁndings from an independent investigation.” Id., at 289. Instead, the email unequivocally
shows that the statements by Corona were part of an
independent investigation, undertaken by Battles and
Gonzalez into Ybarra’s suitability as an investigator.
Simply put, Ybarra has not pled facts to make a plausible showing that his employment was terminated
simply on the basis of Corona’s reports to Gonzalez.
Given these failures, any “cat’s paw” theory is not supported by the facts of the complaint or email exhibit.
Thus, Ybarra is – at best – left with only circumstantial evidence of discriminatory animus. When a
plaintiff attempts to use circumstantial evidence to
prove a “mixed motives” Title VII claim, the plaintiff
must “demonstrate a prima facie case of discrimination; the defendant then must articulate a legitimate,
non-discriminatory reason for its decision to terminate

App. 28
the plaintiff; and, if the defendant meets its burden of
production, the plaintiff must then offer sufﬁcient evidence to create a genuine issue of material fact either:
(1) that the defendant’s reason is not true, but is instead a pretext for discrimination (pretext alternative);
or (2) that the defendant’s reason, while true, is only
one of the reasons for its conduct, and another ‘motivating factor’ is the plaintiff ’s protected characteristic
(mixed-motive[s] alternative).” Rachid v. Jack In The
Box, Inc., 376 F.3d 305, 312 (5th Cir. 2004) (internal
quotations omitted).
While a plaintiff “need not make out a prima facie
case of discrimination” to survive a motion to dismiss,
the plaintiff “must plead sufﬁcient facts on all of the
ultimate elements to make [his] case plausible.” Jenkins v. Louisiana Workforce Comm’n, 713 F. App’x 242,
244 (5th Cir. 2017) (internal quotations omitted).
Ybarra does not meet even this lenient standard.
In order to establish a prima facie case of sex discrimination, Ybarra must demonstrate that: (1) he was
a member of a protected class; (2) he was qualiﬁed for
the position; (3) he was the subject of an adverse employment action; and (4) he “was treated less favorably
than were other similarly situated employees who
were not members of the protected class, under nearly
identical circumstances.” Carr v. Sanderson Farms,
Inc., 665 F. App’x 335, 337 n. 5 (5th Cir. 2016) (citing
Alvarado v. Tex. Rangers, 492 F.3d 605, 611 (5th Cir.
2007)).

App. 29
Ybarra has pled facts that he is a male, which is a
protected class. Junfei Li v. Univ. of Texas Rio Grande
Valley, No. 7:15-CV-00534, 2018 WL 706472, at *7 (S.D.
Tex. Feb. 2, 2018) (“Title VII protects both males and
females from sex discrimination.”). He has also pled
facts showing it is plausible that he was qualiﬁed for
his position, based upon his prior investigative and
law enforcement experience. Ybarra has also pled facts
showing that his employment was terminated, which
satisﬁes the requirement for an adverse employment
action. Valderaz v. Lubbock Cty. Hosp. Dist., 611 F.
App’x 816, 822 (5th Cir. 2015) (Court “has always held”
that termination is an adverse employment action).
At the same time, Ybarra’s claim falls short, because he has pled no facts showing that he “was
treated less favorably than were other similarly situated employees who were not members of the protected
class, under nearly identical circumstances.” Alvarado,
492 F.3d at 611. Ybarra has pled no facts showing that
he was treated differently than a non-male under
nearly identical circumstances. Thus, Ybarra has not
made a plausible claim of prima facie sex discrimination.
Accordingly, Ybarra has failed to state a claim of
discrimination based upon his sex upon which relief
can be granted.
C. Civil Rights Conspiracy
Ybarra alleges that Gonzalez, Wong, Perry, De
Luna, and Gomez – a group comprised of both women

App. 30
and men – conspired “to deprive Mr. Ybarra of his civil
rights as secured by the United States Constitution
in violation of 42 U.S.C. Sec. 1985.” Dkt. No. 22, p. 9.
This claim is meritless as a matter of law.
Ybarra claims relief under § 1985(2) and § 1985(3).
Dkt. No. 31, p. 8. He claims that he is in a protected
class of “whistleblowers.” Id, p. 6. As set forth earlier,
the second section prohibits a conspiracy to retaliate
against someone because they testiﬁed “in any court of
the United States.” 42 U.S.C. § 1985(2). The third section prohibits a conspiracy to deprive “any person or
class of persons of the equal protection of the laws, or
of equal privileges and immunities under the laws.” 42
U.S.C. § 1985(3).
As to the § 1985(2) claim, administrative proceedings are not considered to be “any court of the United
States.” Deubert, 820 F.2d at 758. Thus, the protections
afforded by § 1985(2) do not extend as far as Ybarra
would have this Court go. Ybarra’s testimony in the
administrative proceedings and the investigations of
Perry and Mock is not protected under § 1985(2).
Deubert, 820 F.2d at 758. In sum, Ybarra has pled no
facts showing that the Defendants retaliated against
him for testifying in federal court.
Furthermore, as to both the § 1985(2) and
§ 1985(3) claim, the statute only protects against racial
or class-based animus; it does not extend to those
claiming protection as whistleblowers. Bryant, 597
F.3d at 687. Ybarra expressly claims that his conspiracy claim is based upon his status as a whistleblower.

App. 31
Dkt. No. 31, p. 6. Thus, this claims fail as a matter of
law. These claims should be dismissed for failure to
state a claim upon which relief can be granted.
D. Prohibited Personnel Practices Act
Ybarra alleges that Perry, De Luna, and Gomez
violated the Prohibited Personnel Practices Act when
they “acted under the color of law to deceive and willfully obstruct Plaintiff with respect to his right to compete for employment” and when they acted “in concert
to provide false and harmful statements to Texas
Health and Human Services employees, Adela M. Gonzalez and Jay Wong, in order to damage Mr. Ybarra’s
reputation as a valuable employee.” Dkt. No. 22, p. 10.
The statute, by its express terms, only applies to
actions taken against a federal employee or applicant
for federal employment. 5 U.S.C. § 2302(b)(1). If the
plaintiff “is a former employee and is not an applicant
for employment with the [federal] government,” then
this statute is inapplicable. Amarille v. Ofﬁce of Pers.
Mgmt., 28 F. App’x 931, 933 (Fed. Cir. 2001). Thus, the
Prohibited Personnel Practices Act does not cover any
actions taken by Perry, De Luna, or Gomez, after
Ybarra left federal employment. Id.
To the extent that any of these actions took place
while Ybarra was a federal employee, his remedy lies
with an administrative appeal as part of the Civil Service Reform Act. See Mahtesian v. Lee, 406 F.3d 1131,
1134 (9th Cir. 2005) (holding that claims made by federal employees pursuant to 5 U.S.C. § 2302(b) are

App. 32
subject to the administrative proceedings outlined by
the CSRA). Accordingly – even assuming such timing
– Ybarra fares no better, because the Court would lack
subject matter jurisdiction over such claims.
Thus, as presented, Ybarra’s complaint fails to
state a claim upon which relief can be granted against
any defendant.
E. Bivens
Ybarra claims that Perry, De Luna, and Gomez,
violated his First Amendment right to free speech
when they made “false and harmful” statements to
THHSC employees to damage his employment prospects. Dkt. No. 22, pp. 10-11. Yet again, Ybarra has
failed to state a claim upon which relief can be granted.
As previously noted, Bivens is a judicially created
remedy. Bivens, 403 U.S. at 396-97. It is also a “disfavored” remedy, because it creates a remedy in a space
that Congress has chosen not to act. Abbasi, ___ U.S.
___, 137 S. Ct. at 1857. The Fifth Circuit has recognized that “the Supreme Court strongly cautioned
against extending Bivens to new contexts. [ . . . ] [a]
First Amendment claim is likely a new context.”
Brunson v. Nichols, 875 F.3d 275, 279 n. 3 (5th Cir.
2017).
“[A] Bivens remedy will not be available if there
are special factors counselling hesitation in the absence of afﬁrmative action by Congress.” Abbasi, 137
S. Ct. at 1857 (internal quotations omitted). “In sum,

App. 33
the concept of ‘special factors counselling hesitation
in the absence of afﬁrmative action by Congress’ has
proved to include an appropriate judicial deference to
indications that congressional inaction has not been
inadvertent.” Schweiker v. Chilicky, 487 U.S. 412, 423
(1988). This means that, if Congress has enacted a
statutory scheme to cover certain wrongs, Bivens
should not apply in that general context, even if that
statutory scheme does not provide a remedy for the
speciﬁc wrong claimed by the plaintiff. Id; Lombardi v.
Small Bus. Admin., 889 F.2d 959, 961 (10th Cir. 1989)
(“the Court will not create a Bivens remedy in a Federal employment action even if no remedy at all has
been provided” by other statutes that govern federal
employee’s rights).
The Supreme Court has previously concluded
that, when “claims arise out of an employment relationship that is governed by comprehensive procedural
and substantive provisions giving meaningful remedies against the United States,” there is no Bivens
remedy. Bush v. Lucas, 462 U.S. 367, 368 (1983) (emphasis added). The Fifth Circuit has observed that this
holding also applies to former federal employees seeking re-employment. Carroll v. United States, 721 F.2d
155, 156 (5th Cir. 1983). Numerous federal courts have
held that the language of Bush – concerning claims
that “arise out of an employment relationship” – is so
broad that it covers claims made by ex-federal employees for wrongs taken by co-worker and supervisory defendants and extends to wrongs that occurred after the
plaintiff left federal employment. Lombardi v. Small

App. 34
Bus. Admin., 889 F.2d 959, 961 (10th Cir. 1989); Yu v.
U.S. Dep’t of Veterans Affairs, 528 F. App’x 181, 184 (3d
Cir. 2013); Sarullo v. U.S. Postal Serv., 352 F.3d 789, 795
(3d Cir. 2003); Hall v. Clinton, 235 F.3d 202, 204 (4th
Cir. 2000); Jones v. Tennessee Valley Auth., 948 F.2d
258, 264 (6th Cir. 1991); Saul v. United States, 928 F.2d
829, 840 (9th Cir. 1991); Marshall v. O’Conner, No. CIV.
A. 90-1214, 1991 WL 61744, at *6 (E.D. La. Apr. 16,
1991); Deaton v. Plowman, No. 192CV027SD, 1996 WL
33370667, at *4 (N.D. Miss. Mar. 31, 1996)
In short, if any claims made by a plaintiff “arise
out of an employment relationship” with the federal
government, then Bivens is not an available remedy.
Congress provided “the full scheme of remedies” available to aggrieved former federal employees when it
passed the CSRA. Sarullo, 352 F.3d at 795. Moreover,
given the scope of the act and the decisions of the Supreme Court, even if the CSRA does not provide a speciﬁc remedy for Ybarra, Bivens is still inapplicable.
Thus, all Bivens claims made by Ybarra against
any defendant should be dismissed for failure to state
a claim upon which relief can be granted.
F. § 1983
Ybarra asserts that Wong and Gonzalez violated
his constitutional rights when they shared “negative
information obtained improperly and of which they
have no conﬁrmation.” Dkt. No. 22, p. 12. As with the
previously discussed claims, here also, Ybarra has
failed to state a claim upon which relief can be granted.

App. 35
It is not clear from the complaint the exact basis
for Ybarra’s § 1983 claim. It appears that Ybarra is
claiming that he was wrongfully terminated from his
employment as retaliation for testifying against Perry
and Mock. Dkt. No. 31, p. 10. In other words, Ybarra
seems to be claiming retaliatory discharge.
“To establish a retaliatory discharge claim under
the First Amendment, the plaintiff must prove that:
(1) he suffered an adverse employment action, (2) his
speech involved a matter of public concern, (3) his interest in commenting on the matter of public concern
outweighed the defendant’s interest in promoting efﬁciency (balancing under Pickering v. Board of Education, 391 U.S. 563, 88 S.Ct. 1731, 20 L.Ed.2d 811
(1968)), and (4) his speech was a substantial or motivating factor behind the defendant’s actions.” James v.
Texas Collin Cty., 535 F.3d 365, 375-76 (5th Cir. 2008).
As noted in the earlier discussion about retaliation, Ybarra has pled facts showing that he suffered an
adverse employment action, which was the termination of his employment. Furthermore, Ybarra’s speech
– the testimony against Perry and Mock – was on a
matter of public concern. Branton v. City of Dallas, 272
F.3d 730, 740 (5th Cir. 2001) (“There is perhaps no
subset of ‘matters of public concern’ more important,
[for purposes of First Amendment protection of speech
of public employees,] than bringing ofﬁcial misconduct
to light.”) (brackets original). At this point in the proceedings, Ybarra has pled sufﬁcient facts to show that
his interest in commenting outweighed the defendant’s
interest in efﬁciency. Thus, Ybarra has pled sufﬁcient

App. 36
facts to state a claim as to the ﬁrst three elements.
Where Ybarra’s claim fails is that he has not pled any
facts as to the fourth element.
There have been no facts pled showing that Gonzalez, Wong, or any other THHSC employee was motivated in any way by a desire to retaliate against
Ybarra for his prior testimony. Ybarra has pled no
statements by any person showing that Gonzalez or
Wong was even aware of Ybarra’s prior testimony. See
Tharling v. City of Port Lavaca, 329 F.3d 422, 428 (5th
Cir. 2003) (“It is axiomatic that a party cannot be ‘substantially motivated’ by a circumstance of which that
party is unaware.”). The email from Battles to Gonzalez does not mention Ybarra’s prior testimony. Ybarra’s
subjective belief that Gonzalez and Wong were motivated by Ybarra’s prior testimony is insufﬁcient to
state a claim for retaliation. See Hervey v. Mississippi
Dep’t of Educ., 404 F. App’x 865, 870 (5th Cir. 2010)
(“subjective beliefs of discrimination cannot be the basis for judicial relief.”).
Thus, Ybarra has failed to plead any facts showing
a plausible claim that Wong or Gonzalez were motivated to discriminate against him based upon his prior
testimony. For that reason, he fails to state a claim
upon which relief can be granted.
G. Conversion
Ybarra claims that Gonzalez, Wong, and De Luna
“took and never returned the personal property of
Mr. Ybarra[ ]” after his employment was terminated.

App. 37
Dkt. No. 22, pp. 12-13. Given that De Luna is a federal
employee and Gonzalez and Wong are state employees,
there are different laws applying to this claim and they
will be addressed separately.
1. De Luna
As to De Luna, the Court lacks subject matter jurisdiction over this claim. A plaintiff may not sue a federal employee for the “loss of property” if that employee
was acting “within the scope of his ofﬁce or employment.” 28 U.S.C. § 2679(b)(1). If the actions were taken
within the scope of the employee’s duties, then the
United States is the proper defendant. § 2679(d)(1).
Whether De Luna was acting within the scope of
his employment is controlled by Texas law. Rankin, 556
F. App’x at 308. Under Texas law, an employee is acting
within the course and scope of his employment if “the
conduct occurred (1) within the general authority
given the employee, (2) in furtherance of the employer’s business, and (3) for the accomplishment of the
object for which the employee was employed.” Zarzana
v. Ashley, 218 S.W.3d 152, 159 (Tex. App. 2007). For
federal employees, the Attorney General has the statutory authority to certify that the employee was acting
within the scope of his duties; that certiﬁcation is subject to judicial review. 28 U.S.C. § 2679(d)(1); Gutierrez
de Martinez v. Lamagno, 515 U.S. 417, 432 (1995).
In this case, De Luna has provided the Court with
an certiﬁcation signed by the U.S. Attorney as well as
a sworn declaration which he, De Luna, has signed.

App. 38
Dkt. Nos. 42-1, 45-1. In his declaration, De Luna states
that Gonzalez informed him that while she was cleaning out Ybarra’s ofﬁce, “she found sensitive documents
that appeared to belong” to U.S. Customs and Border
Protection. Dkt. No. 45-1, p. 1. De Luna states that he
went to the THHSC ofﬁces, upon the direct order of his
supervisor, to review the documents. Id, p. 2. He said
he set aside “the sensitive CBP materials in one pile”
and the remaining documents in another pile. Id. De
Luna states he left all of the documents at THHSC
with the understanding that THHSC “intended to send
the documents that had been identiﬁed as belonging to
CBP back to CBP and to send the remaining documents back to” Ybarra. Id.
Based upon the certiﬁcation, as well as De Luna’s
sworn afﬁdavit, it appears clear that De Luna was acting within the scope of his employment when he acted
upon the direction of his superiors. He acted within
his general authority – he was expressly asked by his
supervisor to undertake these actions. He acted in furtherance of his employer’s objectives to protect sensitive information and his actions were taken “for the
accomplishment of the object for which the employee
was employed.”
Ybarra argues that “[t]he illegal act of conversion
is not within [De Luna’s] duties at ICE.” Dkt. No. 44,
p. 15. This argument misapprehends the nature of this
issue. The question before the Court is not whether
De Luna acted appropriately; the question is whether
he was acting within the scope of his duties. Given
that De Luna was asked by his supervisor to review

App. 39
Ybarra’s property, it appears beyond dispute that he
was acting within the scope of his federal employment
when he did so. City of Lancaster v. Chambers, 883
S.W.2d 650, 658 (Tex. 1994) (ofﬁcial is acting within
scope of authority if he is “discharging the duties generally assigned” to him). Accordingly, the United States
should be substituted as the proper defendant. 28
U.S.C. § 2679(d)(1).
Because the United States is the proper defendant
for the claims against De Luna, Ybarra’s claims must
be made pursuant to the Federal Tort Claims Act
(“FTCA”). See In re Supreme Beef Processors, Inc., 468
F.3d 248, 252 (5th Cir. 2006) (describing the FTCA as
“an exclusive vehicle for the assertion of tort claims for
damages against the federal government.”). Pursuant
to the FTCA, a plaintiff must ﬁle an administrative
claim as a precursor to any litigation; absent the exhaustion of administrative remedies, the Court lacks
subject matter jurisdiction. In re Complaint of Ingram
Barge Co., 351 F. App’x 842, 843 (5th Cir. 2009).
There is no evidence in the record that Ybarra ﬁled
any administrative claims against the United States
for the return of his property. Based upon the law and
those facts, the Court lacks subject matter jurisdiction
and this claim should be dismissed without prejudice
to reﬁling.
2. Gonzalez and Wong
Ybarra claims that Gonzalez and Wong acted under color of law when they committed conversion. Dkt.

App. 40
No. 22. This claim is barred by the Texas Tort Claims
Act.
Under Texas law, “[i]f a suit is filed against an
employee of a governmental unit based on conduct
within the general scope of that employee’s employment and if it could have been brought under this
chapter against the governmental unit, the suit is considered to be against the employee in the employee’s
ofﬁcial capacity only.” TEX. CIV. PRAC. & REM. CODE
§ 101.106(f ). “[T]he statute strongly favors dismissal of
the governmental employees” from lawsuits. Waxahachie Indep. Sch. Dist. v. Johnson, 181 S.W.3d 781, 785
(Tex. App. 2005). The Court must consider: (1) whether
Gonzalez and Wong were acting within the general
scope of their employment; and (2) whether this suit
could have been brought against THHSC.
Under the Texas Tort Claims Act, “scope of employment” is deﬁned as “the performance for a governmental unit of the duties of an employee’s ofﬁce or
employment and includes being in and about the performance of a task lawfully assigned to an employee
by competent authority.” TEX. CIV. PRAC. & REM. CODE
§ 101.001(5). It does not matter if the actions were
“conducted with improper motives or in an improper
manner,” so long as they are within a task lawfully
assigned to the employee. Tipps v. McCraw, 945
F. Supp. 2d 761, 767 (W.D. Tex. 2013).
By the terms of the complaint, Gonzalez and Wong
refused to return personal possessions that they
found in Ybarra’s ofﬁce after his employment was

App. 41
terminated. Dkt. No. 22, pp. 12-13. Cleaning out the ofﬁce of an employee who was ﬁred would fall within the
deﬁnition of “a task lawfully assigned to an employee
by competent authority.” § 101.001(5). Even if the withholding of this property is being done with “improper
motives,” it does not change the fact that the act of it
is within the scope of their assigned duties. See Fink
v. Anderson, 477 S.W.3d 460, 466 (Tex. App. 2015)
(“Conduct that serves any purpose of the employer is
within the scope of employment even if the conduct escalates beyond that assigned or permitted.”) (emphasis
added). Thus, Gonzalez and Wong were acting within
the general scope of their employment.
As to whether this suit could have been brought
against THHSC under the Texas Tort Claims Act, the
Court must take a broad view of this question. The
Texas Supreme Court has held that “all tort theories
alleged against a governmental unit” – regardless of
whether any such claim would actually be successful –
“could have been brought” under the Texas Tort Claims
Act. Franka v. Velasquez, 332 S.W.3d 367, 378 (Tex.
2011). Because conversion is a common law tort, it
falls within the parameters of the Texas Tort Claims
Act. City of Houston v. Petroleum Traders Corp., 261
S.W.3d 350, 361 (Tex. App. 2008). Thus, Ybarra’s claims
“could have been brought under this chapter against”
THHSC.
Because Gonzalez and Wong were acting within
the general scope of employment and Ybarra could
have brought his claims against THHSC, then the
claims are made against Gonzalez and Wong solely in

App. 42
their ofﬁcial capacities. TEX. CIV. PRAC. & REM. CODE
§ 101.106(f ). A claim under the Texas Tort Claims Act
against an individual in their ofﬁcial capacity is a suit
against the governmental employer. Alexander v.
Walker, 435 S.W.3d 789, 791 (Tex. 2014). Thus, Ybarra’s
claims are against the Texas Health and Human Services Commission.
At the same time, the Texas Tort Claims Act
does not waive immunity for intentional torts. City of
Fort Worth v. Deal, No. 02-17-00413-CV, 2018 WL
2440387, at *1 (Tex. App. May 31, 2018) (citing TEX.
CIV. PRAC. & REM. CODE § 101.057(2)). Conversion is
considered an intentional tort for purposes of the Texas
Tort Claims Act. Old S. Amusements, Inc. v. City of San
Antonio, No. 04-09-00466-CV, 2010 WL 2772444, at *2
(Tex. App. July 14, 2010).
Thus, the Texas Tort Claims Act bars any claim
made by Ybarra against Gonzalez and Wong. In such
circumstances, the Court lacks subject matter jurisdiction. Aguocha-Ohakweh v. Harris Cty. Hosp. Dist.,
No. 17-20259, 2018 WL 2077907, at *3 (5th Cir. May 3,
2018). Thus, as with the claim against De Luna, the
claims against Gonzalez and Wong should be dismissed without prejudice for lack of subject matter jurisdiction.
IV. Recommendation
It is recommended that the motions to dismiss
ﬁled by Defendants Texas Health and Human Services
Commission, Adela Gonzalez, Jay Wong, Jorge Perry,

App. 43
Fernando De Luna and Mario Gomez be granted. Dkt.
Nos. 25, 27, 42.
Speciﬁcally, it is recommended that the claims
against any and all defendants for (1) unlawful retaliation; (2) discrimination based on sex; (3) § 1985 conspiracy to interfere with Ybarra’s civil rights; (4)
violations of the Prohibited Personnel Practices Act;
(5) Bivens civil rights violations; and (6) 42 U.S.C.
§ 1983 civil rights violations be dismissed with prejudice for failure to state a claim upon which relief can
be granted.
It is further recommended that the claim of conversion against Gonzalez, Wong and De Luna be dismissed without prejudice for lack of subject matter
jurisdiction.
The parties have fourteen (14) days from the date
of being served with a copy of this Report and Recommendation within which to ﬁle written objections, if
any, with the Honorable Andrew S. Hanen, United
States District Judge. 28 U.S.C. § 636(b)(1) (eff. Dec. 1,
2009). Failure to ﬁle timely objections shall bar the
parties from a de novo determination by the District
Judge of an issue covered in the report and shall bar
the parties from attacking on appeal factual ﬁndings
accepted or adopted by the district court except upon
grounds of plain error or manifest injustice. See
§ 636(b)(1); Thomas v Arn, 474 U.S. 140, 149 (1985);
Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415,
1428-29 (5th Cir. 1996) superseded by statute on other

App. 44
grounds, 28 U.S.C. § 636(b)(1) (extending the time to
ﬁle objections from ten to fourteen days).
DONE at Brownsville, Texas, on June 13, 2018.
/s/ Ronald G. Morgan
Ronald G. Morgan
United States Magistrate Judge

App. 45
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-40771
-----------------------------------------------------------------------

JONAS YBARRA, JR.,
Plaintiff - Appellant
v.
TEXAS HEALTH AND HUMAN SERVICES
COMMISSION; ADELA M. GONZALEZ;
JAY WONG; JORGE PERRY; FERNANDO
DE LUNA; MARIO GOMEZ,
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

ON PETITION FOR REHEARING
(Filed Aug. 23, 2019)
Before HIGGINBOTHAM, SMITH, and SOUTHWICK,
Circuit Judges.
PER CURIAM:

App. 46
IT IS ORDERED that the petition for rehearing is
DENIED.
ENTERED FOR THE COURT:
/s/ Jerry E. Smith
UNITED STATES CIRCUIT
JUDGE

